Case No. ___________

IN THE SUPREME COURT OF THE UNITED STATES

STATE OF KANSAS,
Petitioner

v.
RYAN R. JOHNSON,
Respondent

CERTIFICATE OF SERVICE
I, Toby Crouse, a member of the Bar of this Court, certify that on this 1 7 th day
of December, 2019, I caused to be served by first-class mail, postage prepaid, the
enclosed Application for an Extension of Time in Which to File a Petition for a Writ of
Certiorari to the Kansas Supreme Court in the above proceeding on:

Capital Appellate Defender
700 Jackson Ste 903
Topeka, KS 66603
Counsel for Respondent
I further certify that all parties required to be served have been served.

Dated: December 17, 2019

